No. _ __
AMANDO MONTEALVO MARTINEZ,
Petitioner,
vs.
STATE OF IOWA,
Respondent.

AFFIDAVIT
On this 26th day of August, 2021, I, Anthony G. Lantagne, hereby certify that
this Petition for Writ of Certiorari was sent this same day via Federal Express, Next
Day Delivery, to the Supreme Court of the United States. I further certify that I
have served by First Class mail and email this same date the required copies to the
counsel of record listed below:
Tom Miller
Attorney General of Iowa
Hoover State Office Building, 2nd Floor
Des Moines, Iowa 50319
Telephone: (515) 281-3648
Facsimile: (515) 281-8894
Email: tmiller@ag.state.ia.us
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 26th day of August, 2021.

. anta
Lan
e Legal Printing, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-04 77

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

